      Department of Homeland Security



     Review of Costs Invoiced by the Newport News
    Fire Department Under Fire Station Construction
    Grant No. EMW-2009-FC-00629 Awarded by the
         Federal Emergency Management Agency




            American Recovery and Reinvestment Act of 2009



OIG-12-75                                                    April 2012

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 205281 www.oig.dhs.gov

                               APR 3 0 lOll
                                   .-'~




MEMORANDUM FOR:               Elizabeth M. Harman
                              Assistant Administrator, Grant Programs Directorate
                              Federal Emergency Management Agency

FROM:                         Anne l. Richar~~c
                              Assistant Inspector General for Audits

SUBJECT:                      Review of Costs Invoiced by the Newport NeWs Fire
                              Department Under Fire Station Construction Grant
                              No. EMW-2009-FC-00629R Awarded by the Federal
                              Emergency Management Agency

Attached for your information is our final report entitled, Review of Costs Invoiced by
the Newport News Fire Department Under Fire Station Construction Grant No. EMW-
2009-FC~00629 Awarded by the Federal Emergency Management Agency. Since the
report contains no recommendations to Federal Emergency Management Agency
officials, we did not solicit formal comments.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Roger La Rouche, Audit Director; William Gilles,
Audit Manager; and Kevin Donahue, Report Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Background
   The American Recovery and Reinvestment Act of 2009, as amended (Recovery Act),
   appropriated $210 million to the Federal Emergency Management Agency (FEMA) for
   competitive grants for modifying, upgrading, or constructing non-Federal fire stations.
   On September 25, 2009, FEMA awarded a grant of $2,597,425 to the Newport News Fire
   Department for constructing a new fire station (No. 3) in the City of Newport News,
   Virginia. The grant specified a period of performance from September 25, 2009, to
   September 24, 2012. As of October 24, 2011, the Newport News Fire Department had
   completed the construction of the new fire station (see figure 1) and had received
   reimbursements of $2,597,425 from FEMA for the construction of the project.

     Figure 1: Newport News Fire Station No. 3




    Source: Newport News Fire Department.

   Under the terms of the grant, the Newport News Fire Department agreed to use the
   grant funds according to FEMA’s A.R.R.A. Assistance to Firefighters, Fire Station
   Construction Grants, Guidance and Application Kit (Guidance and Application Kit), and to
   comply with Office of Management and Budget (OMB) Circular A-87, as revised, Cost
   Principles for State, Local, and Indian Tribal Governments, and the Uniform
   Administrative Requirements for Grants and Cooperative Agreements to State and Local
   Governments contained in the Code of Federal Regulations (44 CFR Part 13).

   The grant also includes requirements for complying with OMB Circular A-133, Audits of
   States, Local Governments, and Nonprofit Organizations, as revised, and Recovery Act
   provisions for submitting quarterly recipient reports to the Federal Government on the

www.oig.dhs.gov                                  2                                   OIG-12-75
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   use of Recovery Act funds; paying prevailing wages as determined by the Secretary of
   Labor; and using American-made iron, steel, and manufactured goods in the
   construction of the project.

   Results of Review
   We determined that that the Newport News Fire Department invoiced sufficient
   allowable, allocable, and reasonable costs to earn the $2,597,425 provided under the
   grant. In addition, we verified that the Newport News Fire Department submitted the
   required quarterly reports on project activities to the Federal Government, and
   complied with the grant and Recovery Act requirements for paying prevailing wages and
   using American-made iron, steel, and manufactured goods.




www.oig.dhs.gov                               3                                     OIG-12-75
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs invoiced for reimbursement
   by the Newport News Fire Department were allowable, allocable, and reasonable
   according to the grant and applicable Federal regulations. This audit covered costs of
   $2,597,425 claimed by the Newport News Fire Department from September 2010 to
   June 2011 and reimbursed by FEMA.

   In conducting our audit, we—

       •	 Obtained and reviewed the Recovery Act, the grant application and award, the
          grant Guidance and Application Kit, and Federal cost principles and grant
          administrative requirements;

       •	 Interviewed Newport News Fire Department and City of Newport News 

          personnel to gain an understanding of their accounting system and the 

          applicable internal controls; 


       •	 Reviewed the recipient’s internal controls specifically related to our objectives;

       •	 Examined contractor invoices and other evidence supporting 100% of costs
          incurred and invoiced to FEMA for reimbursement;

       •	 Reviewed accounting transactions related to purchases, payments, and receipt
          of FEMA reimbursements;

       •	 Used the grant provisions and applicable Federal requirements to determine
          whether amounts claimed were eligible for reimbursement;

       •	 Performed fraud detection procedures;

       •	 Inspected the new fire station and surrounding property;


www.oig.dhs.gov                                 4                                  	    OIG-12-75
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


       •	 Reviewed the fiscal year (FY) 2011 single audit report and interviewed the
          responsible auditor to identify issues and other conditions that could affect our
          examination; and

       •	 Reviewed the audit of the FY 2011 financial statements of the city of Newport
          News conducted by Cherry, Bekaert and Holland L.L.P., Certified Public
          Accountants. Neither the audit of the financial statements nor the single audit
          identified any deficiencies in internal controls that were classified as material
          internal weaknesses, and the single audit did not identify any questionable grant
          costs.

   We conducted this performance review between November 2011 and March 2012,
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                                5                                  	    OIG-12-75
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Administrator, Federal Emergency Management Agency
   Audit Liaison Official, Federal Emergency Management Agency
   Departmental Recovery Act Coordinator

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             6                              OIG-12-75
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
